<html>
<title> - RECOGNIZING THE 30TH ANNIVERSARY OF THE TAIWAN RELATIONS ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





      RECOGNIZING THE 30TH ANNIVERSARY OF THE TAIWAN RELATIONS ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                            H. Con. Res. 55

                               __________

                             MARCH 19, 2009

                               __________

                            Serial No. 111-6

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
48-141PDF                 WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F. H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
               Lisa Williams, Subcommittee Staff Director
         David Richmond, Subcommittee Professional Staff Member
             Nien Su, Republican Professional Staff Member
                       Vili Lei, Staff Associate













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Con. Res. 55, Recognizing the 30th anniversary of the Taiwan 
  Relations Act..................................................     2
  Amendment in the Nature of a Substitute to H. Con. Res. 55.....     5

                                APPENDIX

Markup notice....................................................    12
Markup minutes...................................................    13
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........    14
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    15
The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York: Prepared statement......................    16
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    17

 
      RECOGNIZING THE 30TH ANNIVERSARY OF THE TAIWAN RELATIONS ACT

                              ----------                              


                        THURSDAY, MARCH 19, 2009

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:04 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The meeting of the subcommittee will come 
to order.
    Pursuant to notice, I call up House Concurrent Resolution 
55. Without objection, the amendment in the nature of a 
substitute before the members will be considered as base text 
for purposes of amendment, will be considered as read and will 
be open for amendment at any point. I yield myself 5 minutes to 
explain this bipartisan legislation.
    [H. Con. Res. 55 and the Amendment in the Nature of a 
Substitute follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. This legislation recognizes the 30th 
anniversary of the Taiwan Relations Act, which was enacted in 
1979 following the establishment of diplomatic relations 
between the United States and the People's Republic of China. 
And I commend my colleagues, Ms. Berkley of Nevada, Chairman 
Berman, and Ranking Senior Member Ros-Lehtinen of our full 
committee for their leadership and support of this historic 
initiative.
    Since 1979, the U.S. policy regarding Taiwan has remained 
unchanged. The joint communiques, together with the Taiwan 
Relations Act, are the foundation of our One-China Policy, 
which implies, as President Reagan once said, ``The Taiwan 
question is a matter for the Chinese people on both sides of 
the Taiwan Strait to resolve.''
    This is why the Taiwan Relations Act declares that its 
intent is ``to preserve and promote extensive, close and 
friendly commercial, cultural and other relations between the 
people of United States and the people of Taiwan, as well as 
the people on mainland China.'' And I believe this should 
continue to be our primary focus.
    As President Obama said, the United States is guided by 
principles that demand greater cooperation and understanding 
between nations. Hopefully, as we look to pass this 
legislation, we will do so in the spirit inherent in our values 
and respectful of the people on both sides of the Taiwan 
Strait. I urge my colleagues to support this substitute.
    Now I yield back to my good friend, the ranking member, to 
explain his views on the proposed legislation.
    Mr. Manzullo. Mr. Chairman, I support your amendment in the 
nature of a substitute to H. Con. Res. 55. I urge my colleagues 
to support it as well.
    With your permission, is it okay if I yield my time to Mr. 
Royce, who wanted to make a short statement on it?
    Mr. Faleomavaega. Without objection, I gladly yield.
    Mr. Royce. I thank the gentleman from Illinois. And thank 
you, Mr. Chairman.
    Taiwan is a beacon of democracy in Asia. We have a strong 
partnership stretching back over half a century. Signed 30 
years ago, the Taiwan Relations Act laid into law the basis for 
the continued commercial, cultural and defense relationship 
between the United States and Taiwan. As this resolution 
states, it has been instrumental in maintaining peace, security 
and stability in the Taiwan Strait.
    While this resolution highlights many of the positive 
attributes of the United Sates-Taiwan relationship, language 
detailing our important economic relationship was regrettably 
struck from the introduced text. As the original version 
states, Taiwan is the ninth largest trading partner of the 
United States, with U.S. exports totaling $26 billion. Imports 
from Taiwan are important too.
    The truth is that trade is very important to Taiwanese 
security; security isn't based on weapons alone. It may be 
wishful thinking with this administration and Congress, but I 
would like to see movement on a free trade agreement with 
Taiwan. Certainly, if we throw up trade barriers, it would do 
much to destabilize Taiwan's economy. Let's not give trade 
short shrift.
    I yield back to the gentleman.
    Mr. Manzullo. I would yield back my time to the chairman.
    Mr. Faleomavaega. I thank the gentleman for his 
statement.<greek-l>
    The clerk will now report. deg.
    Are there any amendments? I am sorry. I think because this 
is on the basis of unanimous consent, that we have both agreed 
on the substance of the proposed legislation, at this point 
now, without objection, the amendment is considered as read 
and--I think there are no amendments--the question occurs on 
the amendment in the nature of a substitute.
    All in favor, say yes or aye.
    All opposed, say no.
    The ayes carry and the resolution is carried. It will now 
be reported favorably to the full committee.
    Without objection, the committee markup is now adjourned. 
Thank you.
    [Whereupon, at 1:09 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Record




             <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
